No. 20-994

In the Supreme Court of the United States
VOLKSWAGEN GROUP OF AMERICA, INC., ET AL., PETITIONERS,
v.
THE ENVIRONMENTAL PROTECTION COMMISSION OF HILLSBOROUGH COUNTY, FLORIDA,
AND SALT LAKE COUNTY, UTAH
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the foregoing brief contains 5,994
words, excluding the parts of the brief that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury the foregoing is true and correct. Executed on February
17, 2021.
/s Elisabeth S. Theodore
Elisabeth S. Theodore
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20011
(202) 942-5000
elisabeth.theodore@arnoldporter.com
February 17, 2021

